p-? o

n ^ nan
'i.

■

'!

n

i*. . k i:,-.\^ kp k

■<

; i. ■ f

1

■: pkk k' ( k

i M k Vi 1:1 feUjri

i j

NO.
! Supreni ~ ~
t

3fn tlje

Supreme Court of tl)e fHntteb States;

j

[_c

ABDUL MOHAMMED,
PETITIONER,
v
JUDGE JORGE ALONSO ET.AL,
RESPONDENTS
On Petition for Writ of Mandamus to the United
States District Court for the Northern District of
Illinois and the Executive Committee of the
United States District Court for the Northern
District of Illinois
PETITION FOR WRIT OF MANDAMUS
Abdul Mohammed
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
(630) 854-5345
aamohammed@hotmail.com

August 5, 2020

RECEIVED
AUG 1 3 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S

QUESTION PRESENTED
The questions presented are:
1) whether the judges who rule on matters upon
which they have no subject matter jurisdiction
whatsoever are entitled to judicial immunity;
2) whether an appeal can be classified as frivolous
and/or not taken in good faith when the judgment of
the District Court which is subject of the appeal does
not state that action was frivolous and/or bad faith
complaint.
PARTIES TO PROCEEDING
Petitioner (Plaintiff in the District Court, and
Mandamus Petitioner in this court) is Abdul
Mohammed.
Respondents in this court are United States District
Court for the Northern District of Illinois, Judge
Manish Shah, Chief Judge Rebecca Pallmeyer, Judge
Jorge Alonso, Judge Gary Feinerman, Judge John
Blakey, Judge Ronald Guzman, Judge Robert
Gettleman, and Members of the Executive Committee
of the United States District Court for the Northern
District of Illinois.

1

TABLE OF CONTENTS
QUESTIONS PRESENTED...........................
TABLE OF AUTHORITIES...........................
PETITION FOR WRIT OF MANDAMUS ....
OPINIONS BELOW.......................................
JURISDICTION..............................................
STATEMENT OF THE CASE......................
REASONS FOR GRANTING MANDAMUS
CONCLUSION................................................

1
3
6

6
6
6

10
12

2

APPENDIX
Appendix A
Order of the District Court which
dismissed Case # 20-cv-3481 (June
App-001-002
29, 2020)
Order of the District Court denying
Petitioner’s Application to proceed on
appeal In Forma Pauperis (August 4,
App-003
2020)

3

TABLE OF AUTHORITIES
Cases:
Cheney v. United States Dist. Court for D.C. (OS475) 542 U.S. 367 (2004) 334 F.3d 1096.) .

5

Bradley v. Fisher, 80 U.S. 335, 351 (1872)

6,7,9

Yates v. Village of Hoffman Estates, Illinois, 209
F.Supp. 757 (N.D. Ill. 1962)........................................ 7
Mohammed u the State of Illinois, Case.No.20-cv3482 (N.D.I11 2020).......... ............................................. 8
Lee v. Clinton, 209 F.3d 1025, 1027 (7th Cir. 2000).)
..................................................................................10,11
Collier v Blagojevich et.al (Case No. 08 c 4090,
N.D.Ill)
10
Constitutional Provisions:
1st Amendment Right to Petition
9
Due Process and Equal Protection Clause of the 5th
Amendment
9
Due Process and Equal Protection Clause of the 14th
9
Amendment

4

% *

PETITION FOR WRIT OF MANDAMUS
This case is an ideal vehicle for resolving a
question of national importance, which is whether
the judges who rule on matters upon which they
have no subject matter jurisdiction whatsoever
are entitled to judicial immunity.
OPINIONS BELOW
The District Court’ Order is which dismissed Case
# 20-cv-3481 is reproduced at App-001-002 and
the Order denying the Petitioner’s Application to
proceed on appeal In Forma Pauperis is
reproduced at App-003.
JURISDICTION
The jurisdiction of this Court is invoked under 28
U.S.C. 1651. The judgment of the District Court
dismissing the Case # 20-cv-3481 was entered on
June 29, 2020, and Order denying the Petitioner’s
Application to proceed on appeal In Forma Pauperis
was entered on August 4, 2020. A Writ of
Mandamus is an order from a court to an inferior
government official ordering the government
official to properly fulfill their official duties or
correct an abuse of discretion. (See, e.g. Cheney v.
United States Dist. Court for D.C. (03-475) 542
U.S. 367 (2004) 334 F.3d 1096.)
STATEMENT OF THE CASE
The District Court dismissed the Case # 20-cv3481 based on judicial immunity for the judges
who were Defendants in that case. Further, the
District Court ruled that the Defendant judges in
Case # 20-cv-3481 are entitled to judicial
immunity, “Even if the judges lacked subjectmatter jurisdiction, they were issuing rulings in
pending cases in their capacity as judges”. Almost

5

148 years back this court ruled in Bradley u.
Fisher, 80 U.S. 335, 351 (1872), “A judge of a
probate court who held a criminal trial would act
in clear absence of all jurisdictions over the
subject matter, whereas a judge of a criminal
court who held a criminal trial for an offense that
was not illegal would act merely in excess of his
jurisdiction. Id. at 352. This court further ruled in
Bradley v. Fisher, 80 U.S. 335, 351 (1872), “Thus,
if a probate court, invested only with authority
over wills and the settlement of estates of
deceased persons, should proceed to prosecute
parties for public offences, jurisdiction over the
subject of offences being entirely wanting in the
court, and this being necessarily known to its
judge, his commission would afford no protection
to him in the exercise of the usurped authority.
This court further ruled in Bradley v. Fisher, 80
U.S. 335, 351 (1872), “A distinction must be here
observed between excess of jurisdiction and the
clear absence of all jurisdictions over the subjectmatter. Where there is clearly no jurisdiction over
the subject-matter any authority exercised is a
usurped authority, and for the exercise of such
authority, when the want of jurisdiction is known
to the judge, no excuse is permissible”. In Case #
20-cv-3481, the Petitioner alleged that the
Defendant judges, in that case, were acting
without any subject-matter jurisdiction, and
hence they are not entitled to judicial immunity
pursuant to Bradley v. Fisher, 80 U.S. 335, 351
(1872). Further Judge Shah’s ruling that the
Defendant judges in Case # 20-cv-3481 are
entitled to judicial immunity because, “Even if the
judges lacked subject-matter jurisdiction, they
were issuing rulings in pending cases in their
capacity as judges” is not only without a citation

6

to authority but it is in a head-on collision with
this court’s ruling in Bradley v. Fisher, 80 U.S.
335, 351 (1872). No other court has the authority
to overrule the decisions of this court. Further, the
District Court ruled in Yates v. Village of Hoffman
Estates, Illinois, 209 F.Supp. 757 (N.D. Ill. 1962)
held that “not every action by a judge is in exercise
of his judicial function. ... it is not a judicial
function for a judge to commit an intentional tort
even though the tort occurs in the courthouse.”
Further Judge Shah entered an order that appeal
of his order entered on June 29, 2020, will be a
frivolous one and not taken in good faith and for
that reason, the Petitioner’s Application to
proceed on his appeal In Forma Pauperis was
denied(App 003). The District Court Order
entered on June 29, 2020, in Case # 20-cv-3481
does not state anywhere that the action was
frivolous, and the Petitioner has no idea why and
how the Case # 20-CV-3481 became frivolous
between June 29, 2020, and August 4, 2020. It is
crystal clear that the Respondents other than
Judge Shah has bullied Judge Shah to dismiss the
Case # 20-cv-3481 and to deny the Petitioner's
Application to proceed on appeal In Forma
Pauperis in retaliation of the Case # 20-cv-3481
and for reasons mentioned in Case # 20-5136
pending in this court. The Respondents other than
Judge Shah has victimized and harassed the
Petitioner with prejudice towards his race, color,
religion, ethnicities, national origin, disabilities,
etc. as described in Case # 20-cv-3481 and as
described in Case # 20-5136 pending in this court.
Further, the Respondents other than Judge Shah
has placed the Petitioner at imminent risk of
being caused a mental and physical injury
including but not limited to conspiracy to murder

7

the Plaintiff, a conspiracy of murder for hire of the
Plaintiff by hiring an unknown man by the name
of “Dee” to murder the Petitioner and attempts to
murder the Plaintiff as described with
documentary evidence in paragraph 17 of the
Appendix in Case # 20-5136 (App 018-App 019 in
Case # 20-5136) by entering the illegal Executive
Committee’s Order on June 17, 2020. Some of the
Defendants in Mohammed v the State of Illinois,
Case.No.20-cv-3482 (N.D.I11 2020) pending in
front of Judge Feinerman had conspired to
murder the Petitioner, conspired the murder for
hire of the Petitioner by hiring an unknown man
by the name of “Dee” to murder the Plaintiff and
by attempts to murder the Plaintiff as described
with documentary evidence in paragraph 17 of the
Appendix in Case # 20-5136 (App 018-App 019 in
Case # 20-5136). The attorneys’ office of one of the
Defendants in Case # 20-cv-3482 (N.D.I11 2020)
had confessed to the Petitioner through email that
some of the Defendants had conspired to cause
harm to the Plaintiff and caused harm to the
Plaintiff. Jessica Howell, the paralegal for two
Defendants in Case # 20-cv-3482 sent an email to
the Petitioner in which she stated that “We
understand that you have been through an
immeasurably rough year but that is not the fault
of our client and any of its attorneys and support
staff. We are all well aware of your situation and
understand your anger and frustration, but it is
being misplaced”. The Petitioner is putting all the
Respondents other than Judge Shah in this case
that if the Petitioner is murdered or any kind of
physical and mental harm is caused to the
Petitioner by one or more of the Defendants in
Case # 20-cv-3482, the Respondents other than
Judge Shah, in this case, will be equally

8

responsible along with the Defendants in Case #
20-CV-3482.
REASONS FOR GRANTING THE PETITION
In face of the arguments made above the dismissal
of Case # 20-cv-3481 is not only incorrect but it
violates the Petitioner’s 1st Amendment Right to
Petition the government, 5th and 14th Amendment
Rights to Due Process and Equal Protection. The
District Court has no discretion to rule that the
Defendant judges in Case # 20-cv-3481 are
entitled to judicial immunity, “Even if the judges
lacked subject-matter jurisdiction, they were
issuing rulings in pending cases in their capacity
as judges”, as a matter of law because not only
Judge Shah did not provide any citation to
authority that Defendant judges in Case # 20-cv3481 are entitled to judicial immunity, “Even if
the judges lacked subject-matter jurisdiction, they
were issuing rulings in pending cases in their
capacity as judges” but it offends Bradley v.
Fisher, 80 U.S. 335, 351 (1872). The Petitioner has
no other remedy other than to Petition this court
to issue a Writ of Mandamus because the
Respondents other than Judge Shah has
conspired together and in concert with each other
as per information and belief has bulbed Judge
Shah to certify the appeal of the Case # 20-cv-3481
as frivolous and not taken in good faith when in
fact Judge Shah did not rule in the order which
dismissed the Case # 20-cv-3481 that the
complaint in Case # 20-cv-3481 was frivolous
and/or bad faith complaint. Further, the denial of
Petitioner's Application to proceed on his appeal
In Forma Pauperis is also not only unlawful but it
violates Petitioner’s 1st Amendment Right to
Petition the government, 5th and 14th Amendment

9

Rights to Due Process and Equal Protection
because the District Court’s order which
dismissed the Case # 20-cv-3481 does not state
that the complaint was frivolous and/or bad faith
complaint and when a complaint is not frivolous
and/or bad faith complaint when it is dismissed
that complaint remains non-frivolous and a good
faith complaint for all other purposes including
but not limited to ruling on the Petitioner’s
Application to proceed on his appeal In Forma
Pauperis. The Petitioner has no other avenue of
seeking relief because Petitioner’s Application to
proceed on his appeal as In Forma Pauperis
against the District Court’s order which dismissed
the Case # 20-cv-3481 has been denied unlawfully
as described above and has been unlawfully
certified as frivolous and as an appeal not taken
in good faith and when an appeal is certified as
frivolous and/or not taken in good faith, the Court
of Appeals will also deny the Petitioner’s
Application to proceed on his appeal In Forma
Pauperis as a matter of law. District Court has no
discretion to rule the appeal is frivolous and/or not
taken in good faith when it did not rule the
complaint in Case # 20-cv-3481 was frivolous
and/or bad faith complaint. Judge Shah ruled in
his order denying Petitioner’s Application to
proceed on his appeal In Forma Pauperis, “This
court concludes that the appeal is not taken in
good faith because the appeal is frivolous. See Lee
v. Clinton, 209 F.3d 1025, 1027 (7th Cir. 2000)”. In
Collier v Blagojevich et.al (Case No. 08 c 4090,
N.D.I11), the court ruled that “The Seventh Circuit
has made clear that litigants should not be
permitted to appeal in forma pauperis where their
underlying complaint has been dismissed as
frivolous. Lee v. Clinton, 209 F.3d 1025, 1026-27

10

(7th Cir. 2000). The complaint which was
dismissed without giving even one opportunity to
the Petitioner to amend in Case # 20-cv-3481 was
neither frivolous nor a bad faith complaint and
Judge Shah’s order which dismissed the Case #
20-cv-3481 neither states that the complaint was
frivolous nor bad faith. Hence pursuant Judge
Shah’s order which dismissed the Case # 20-cv3482 and also pursuant to Lee v. Clinton, 209 F.3d
1025, 1026-27 (7th Cir. 2000) neither the
complaint in Case # 20-cv-3481 is frivolous and/or
a bad faith complaint nor the appeal is frivolous
and/or not taken in good faith.
CONCLUSION
For the reasons set forth above, this court should
grant the petition for mandamus, vacate the order
which dismissed Case # 20-cv-3481 or in the
alternative vacate the District Court's order
denying Petitioner’s Application to proceed on his
appeal In Forma Pauperis and direct the District
Court to approve the Petitioner’s Application to
proceed on his appeal In Forma Pauperis in Case
# 20-cv-3481.
Respectfully submitted,
Abd4kM>pharrfm^d V
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
PH: 630-854-5345
amohammed@hotmail.com
August 5, 2020

11

CERTIFICATE OF SERVICE
I, Abdul Mohammed, the Pro Se Petitioner, hereby certifies that on this 5th Day
of August 5, 2020, I caused a copy of the Writ of Mandamus of the Petitioner to
be served by USPS First Class Mail and email to all the Respondents. I further
certify that all parties required to be served have been served.
Respectfully submitted,
Abdul Mohammed
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
PH: 630-854-5345
amohammed@hotmail.com

12

